Semiannual Report to Congress
October 1, 2011 – March 31, 2012



                                               May 2012




     Federal Election Commission - Office of Inspector General
            999 E Street, N.W. Suite 940, Washington, D.C. 20463
October 1, 2011 - March 31, 2012




                                 FEDERAL ELECTION COMMISSION
                                 WASHINGTON, D.C. 20463




           OFFICE OF THE CHAIR


                                                                     May 21, 2012

                  The Honorable John A. Boehner
                  Speaker of the House of Representatives
                  Washington, D.C. 20515

                  Dear Mr. Speaker:

                          Pursuant to the Inspector General Act of 1978, as amended, the Federal Election
                  Commission submits the Office of Inspector General’s Semiannual Report to Congress. The
                  report summarizes the activity of the FEC Office of Inspector General (“OIG”) from October 1,
                  2011 through March 31, 2012. During this reporting period, the FEC’s Inspector General
                  completed, with the assistance of contract auditors, the annual audit of the FEC’s financial
                  statements.

                          We are pleased to report that the Commission received an unqualified (or clean) opinion
                  on the required statements: the FEC’s Balance Sheet as of September 30, 2011, and the related
                  Statements of Net Costs, Changes in Net Position, Budgetary Resources, and Custodial Activity
                  for the year then ended. This marks the third consecutive year with no material weaknesses
                  identified. The auditors observed, however, two deficiencies in internal controls. The response
                  of FEC management to the issues noted by the auditors appears in the report, which was issued
                  on November 14, 2011.

                           During the semiannual period, the OIG also completed an inspection of the FEC’s
                  building security system. The inspection report was released in December 2011 and identified
                  four findings. Management’s responses to the findings and recommendations are discussed in
                  detail in that inspection report.

                          The Commission appreciates and shares the Inspector General’s commitment to sound
                  financial and management practices, and looks forward to continuing its cooperative working
                  relationship as management takes appropriate measures to improve operations of the
                  Commission. Copies of the Semiannual Report to Congress are being provided to the Chairmen
                  and Ranking Members of the FEC’s oversight committees.

                                                                     On behalf of the Commission,




                                                                     Caroline C. Hunter
                                                                     Chair
                  Enclosure




                                                                                                                    i
                                                         Office of Inspector General Semiannual Report to Congress




                                        MANAGEMENT REPORT ON
                                  INSPECTOR GENERAL ISSUED REPORTS
                                        WITH QUESTIONED COSTS
                            FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2012



                                                       Number of     Questioned    Unsupported
                                                        Reports        Costs          Costs

     A. Reports for which no management decision
        has been made by commencement of the
        reporting period                                   0              0              [0]


     B. Reports issued during the reporting period         0              0              [0]


        Subtotals (A + B)                                  0              0              [0]


     C. Reports for which a management decision
        was made during the reporting period               0              0              [0]


        (i) Dollar value of disallowed costs               0              0              [0]


        (ii) Dollar value of costs not disallowed          0              0              [0]


     D. Reports for which no management decision has
        been made by the end of the reporting period       0              0              [0]


     E. Reports for which no management decision
        was made within six months of issuance             0              0              [0]




ii
October 1, 2011 - March 31, 2012




                                                         MANAGEMENT REPORT ON
                                                INSPECTOR GENERAL ISSUED REPORTS WITH
                                             RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
                                             FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2012



                                                                              Number of       Funds to be Put
                                                                               Reports        To Better Use

                        A. Reports for which no management decision
                           has been made by the commencement
                           of the reporting period                                0                 0


                        B. Reports issued during the reporting period              0                0


                        C. Reports for which a management decision
                           was made during the reporting period                    0                0


                           (i) Dollar value of recommendations that were
                               agreed to by management                             0                0

                            - Based on proposed management action                  0                0

                            - Based on proposed legislative action                 0                0


                           (ii) Dollar value of recommendations that were
                                not agreed to by management                        0                0


                        D. Reports for which no management decision
                           has been made by the end of the reporting period        0                0


                        E. Reports for which no management decision
                           was made within six months of issuance                  0                0




                                                                                                                iii
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




iv
October 1, 2011 - March 31, 2012




                                      FEDERAL ELECTION COMMISSION
                                      WASHINGTON, D.C. 20463
                                      Office of Inspector General



                                     A Message from the Inspector General


                   This report summarizes the work completed by the Office of Inspector General (OIG) for the
                   semiannual reporting period October 1, 2011 – March 31, 2012. The activities highlighted in
                   this report demonstrate our continuing commitment to the promotion of integrity,
                   accountability, efficiency and effectiveness in the programs and operations of the Federal
                   Election Commission (FEC). We have devoted a significant amount of resources this
                   reporting period in attempting to improve the FEC’s closing of recommendations contained
                   in OIG audit reports. The OIG has instituted a policy of meeting quarterly with the
                   management officials responsible for implementing the actions contained in their respective
                   Corrective Action Plans (CAP). During these meetings we discuss the actions contained in
                   the CAPs management has taken or intends to take and the time frame expected to fulfill the
                   recommendations in our audit reports. We also use this time to close those recommendations
                   that we feel have been properly addressed. The OIG intends to present the results of these
                   meetings to the Commission and use this opportunity to make the Commission aware of any
                   concerns we may have in this area.

                   While making follow-up of audit recommendations a priority this reporting period, we have
                   also undertaken several other projects contained in our annual work plan to cover various
                   areas of the FEC, in addition to conducting an investigative peer review of another Office of
                   Inspector General. The results of these efforts are contained in this report.

                   The staff of the OIG has also been active in furthering their knowledge and experience
                   through various training initiatives and participating in Council of Inspectors General on
                   Integrity and Efficiency’s (CIGIE) committees and workshops.




                   Lynne A. McFarland
                   Inspector General
                   Federal Election Commission


                   April 27, 2012




                                                                                                                   v
                          Office of Inspector General Semiannual Report to Congress




     This Page Intentionally Left Blank




vi
October 1, 2011 - March 31, 2012




                                                         Table of Contents



      Executive Summary	                                                                 1
      The Federal Election Commission 	                                                  3
      Office of Inspector General	                                                       4
      OIG Audit Activity	                                                                5	
      OIG Audit Follow-up Activity	                                                      7
      OIG Inspections	                                                                  10
      OIG Hotline Information	                                                          12
      OIG Investigations	                                                               13
      Additional OIG Activity	                                                          14
      Council of the Inspectors General on Integrity and Efficiency (CIGIE) Activity	   15
      OIG Contacts	                                                                     16
      List of Training, Meetings and Conferences Attended by OIG Staff	                 17
      Reporting Requirements 	                                                          20
      Table I –	 Questioned Cost	                                                       21
      Table II – 	Funds Put To Better Use	                                              22
      Table III – Summary Of Audit Reports With	                                        23
                  Corrective Actions Outstanding For More Than Six Months
      Appendix A: Peer Review Results	                                                  24
      Appendix B: OIG Fiscal Year 2012 Work Plan	                                       25




                                                                                              vii
                     Office of Inspector General Semiannual Report to Congress




This Page Intentionally Left Blank
October 1, 2011 - March 31, 2012




                                                            Executive Summary



 The Inspector General Act of 1978, as amend-             to the Audit of the FEC’s Fiscal Year 2011 Financial
 ed, states that the Inspector General is respon-         Statements, see the section entitled OIG Audit
 sible for conducting audits, inspections, investiga-     Activity (starting on page 5).
 tions, and recommending policies and procedures
                                                          In addition to the financial statement audit, the OIG
 that promote economic, efficient, and effective use
                                                          conducted an inspection of the FEC’s Kastle Key
 of agency resources and programs that prevent
                                                          System (OIG 11-02). The Kastle key program pro-
 fraud, waste, abuse, and mismanagement. The
                                                          vides FEC employees and contractors with access to
 IG Act also requires the Inspector General to keep
                                                          the main building entrance, FEC garage, elevators,
 the Commission and Congress fully and currently
                                                          and access to restricted offices (i.e. computer rooms,
 informed about problems and deficiencies in the
                                                          Finance Office). For detailed information pertaining
 Commission’s operations and the need for corrective
                                                          to the OIG’s Kastle Key Inspection, see the section
 action.
                                                          entitled OIG Inspections (starting on page 10).
 This semiannual report includes the major accom-         The OIG continued work on an inspection of the
 plishments of the Federal Election Commission            FEC’s Security Contract (OIG-11-03). The inspec-
 (FEC) Office of Inspector General (OIG), as well as      tion commenced during the last reporting period.
 relevant information regarding additional OIG activi-    Physical security and access control for the FEC
 ties. The executive summary highlights the most          Building at 999 E Street, NW, Washington, DC is
 significant activities of the OIG. Additional details    covered by a contract (the “Contract”) with a contract
 pertaining to each activity (audits, hotline, and in-    guard company. The purpose of this inspection is
 vestigations) can be found in subsequent sections of     two-fold. The first purpose is to review the Contract,
 this report.                                             policies and procedures, standing orders, and guard
                                                          facilities to clarify responsibilities and authorities.
 In November 2011, the OIG completed the Audit of
                                                          This goal is informational and intended to provide
 the FEC’s Fiscal Year (FY) 2011 Financial Statements
                                                          FEC management with information on the responsi-
 (OIG-11-01). Under contract with the OIG, the in-
                                                          bilities and authorities of the parties to and benefi-
 dependent public accounting firm Leon Snead &
                                                          ciaries of the Contract. The second purpose is to
 Company (LSC) conducted the audit and issued an
                                                          determine compliance with selected Contract provi-
 unqualified (clean) audit opinion. LSC also issued       sions, policies and procedures. The OIG anticipates
 a report on internal controls that contained several     completing the inspection and releasing the final re-
 audit recommendations to address two (2) significant     port during the next reporting period.
 deficiencies, which were: (1) information technology
 security control weaknesses; and (2) internal control    The OIG also conducted follow-up work for prior au-
 weaknesses related to financial reporting. Lastly, the   dits with outstanding audit recommendations. In an
 results of LSC’s tests of compliance with laws and       effort to ensure audit recommendations are being
 regulations described in their audit report disclosed    properly implemented in a timely manner, the OIG
 no instance of noncompliance with laws and regula-       started conducting quarterly meetings with manage-
 tions that are required to be reported under U.S. gen-   ment to discuss the status of management’s cor-
 erally accepted government auditing standards or         rective actions for the outstanding audit recommen-
 OMB guidance. For detailed information pertaining        dations. During this reporting period the OIG held


                                                                                                                 1
                                                            Office of Inspector General Semiannual Report to Congress




separate meetings with management in regards to:        at the FTC headquarters office in Washington, DC,
1) the 2010 Follow-up Audit of Procurement and          where we interviewed OIG investigative person-
Contract Management; 2) the 2010 Follow-up Audit        nel and reviewed FTC OIG investigative policies
of Privacy and Data Protection; 3) Audit Follow-        and procedures. Additionally, we sampled four (4)
up of the FEC’s Transit Benefit Program; and 4) the     case files for investigations closed during the previ-
Audit of the Commission’s Property Management           ous 12-month period and reviewed the case files
Controls. For details regarding the OIG’s audit         for compliance with the quality standards for inves-
follow-up work, see the section entitled OIG Audit      tigations. We determined that the system of inter-
Follow-up Activity (starting on page 7).                nal safeguards and management procedures for the
                                                        investigative function of the FTC OIG in effect for
In addition to the OIG’s audit and inspection work,     the time period examined was in compliance with
there was activity during the reporting period on       the quality standards established by the Council
hotline and investigative matters. The evaluation       of Inspectors General on Integrity and Efficiency
process of hotline complaints are conducted by the      (CICIE). For further details regarding the investi-
Chief Investigator and the Deputy Inspector General.    gative peer review, see Appendix A: Investigative
During this semiannual reporting period, the OIG        Peer Review Results (starting on page 24).
opened two (2) new hotline complaints in which one
(1) hotline complaint was closed, and one (1) com-
plaint was merged into an investigation. Further, the
OIG has three (3) open hotline complaints as of the
end of this reporting period, including one (1) that
was opened prior to the current semiannual report-
ing period. For details regarding the OIG’s hotline
complaints, see the section entitled OIG Hotline
Information (starting on page 12).



Regarding OIG investigations, the OIG closed one
(1) investigation during this timeframe. The in-
vestigation involved allegations that an employee
violated criminal ethics laws and regulations gov-
erning standards of conduct for federal executive
branch employees. For further details regarding the
OIG’s investigations, see the section entitled OIG
Investigations (starting on page 13).

Lastly, the OIG completed a voluntary investigative
peer review of the Federal Trade Commission (FTC)
OIG on March 28, 2012. The review was conducted



2
October 1, 2011 - March 31, 2012




                             The federal election commission



                                         In 1975, Congress created the Federal Election
                                         Commission to administer and enforce the Federal
                                         Election Campaign Act (FECA). The duties of the
                                         FEC, an independent regulatory agency, are to dis-
                                         close campaign finance information; enforce the pro-
                                         visions of the law; and oversee the public funding of
                                         Presidential elections.

                                         The Commission consists of six members who are
                                         appointed by the President and confirmed by the
                                         Senate. Each member serves a six-year term, and
                                         two seats are subject to appointment every two
                                         years. By law, no more than three Commissioners
                                         can be members of the same political party,
                                         and at least four votes are required for any offi-
                                         cial Commission action. The Chairmanship of the
                                         Commission rotates among the members each year,
                                         with no member serving as Chairman more than
                                         once during his or her term. Currently the FEC has
                                         a full complement of Commissioners – Caroline
                                         C. Hunter, Chair; Ellen L. Weintraub, Vice Chair;
                                         and Commissioners Cynthia L. Bauerly; Donald
                                         F. McGahn II; Matthew S. Petersen; and Steven T.
                                         Walther.




                                                                                             3
                Office of Inspector General Semiannual Report to Congress




    Office of Inspector General.



            The Inspector General Act of 1978 (P.L. 100-504),
            as amended, states that the Inspector General is re-
            sponsible for: 1) conducting and supervising audits
            and investigations relating to the Federal Election
            Commission’s programs and operations; 2) de-
            tecting and preventing fraud, waste, and abuse of
            agency programs and operations while providing
            leadership and coordination; 3) recommending poli-
            cies designed to promote economy, efficiency, and
            effectiveness of the establishment; and 4) keeping
            the Commission and Congress fully and currently
            informed about problems and deficiencies in FEC
            agency programs and operations, and the need for
            corrective action.




4
October 1, 2011 - March 31, 2012




                                                              OIG Audit Activity



 Audit of the FEC’s Fiscal Year 2011 Financial           The OIG provided assistance to the LSC auditors to
 Statement Audit                                         complete new audit steps for reviewing the controls
                                                         over copyright applications and software. The OIG
 Assignment Number:	         OIG-11-01                   assisted in retrieving the proper audit documenta-
 Status:	     Released November 2011                     tion from management for the auditors to review. In
                                                         addition, the auditors met with the Chair and Vice
 http://www.fec.gov/fecig/documents/Final_FY2011_        Chair of the Commission to fulfill the requirements of
 Financial_Statement_Audit_Report.pdf                    SAS 114: Communication with Those Charged with
                                                         Governance. The auditors provided the Chair and
 The Office of Inspector General (OIG) exercised         Vice Chair with an explanation of their audit role and
 another option year with Leon Snead & Company           responsibilities, an update regarding the progress of
 (LSC) to conduct the Federal Election Commission’s      the audit, and the audit issues identified and provid-
 (FEC) annual financial statement audit. The en-         ed to management.
 trance conference was held on April 27, 2011 and
 audit fieldwork commenced on May 16, 2011.              Upon completion of the interim testing phase, the
                                                         OIG reviewed LSC’s interim audit workpapers. The
 The OIG approved LSC’s planning documents and           OIG also reviewed the notice of findings and recom-
 audit program for the 2011 financial statement au-      mendations (NFR) prior to distribution to manage-
 dit. The planning phase consisted of LSC briefing       ment. The review and evaluation phase and interim
 the OIG on any changes to the audit plan from the       testing phase identified twelve (12) audit issues that
 prior year, new or additional audit steps included in   were provided to management as NFRs.
 the audit plan, and any changes made due to new
 requirements and/or audit standards for the 2011        Final audit testing began in October and status
 financial statement audit. For FY 2011, the audi-       meetings were held weekly during that month. There
 tors included a more detailed review of the FEC’s       were no additional NFRs issued to management as
 Intragovernmental Receipts and Reconciliations to       a result of the final audit testing. The auditors provid-
 adhere to the Treasury Financial Manual Bulletin No.    ed the final draft audit report with management com-
 2011-04. In addition, LSC also added audit testing      ments to the OIG for review and the final audit report
 steps to review the FEC’s controls over copyright       was released on November 14, 2011. The auditors
 applications and software.                              issued an unqualified (clean) audit opinion. In addi-
                                                         tion, testing of internal controls identified no material
 During the review and evaluation phase, LSC fol-        weaknesses. The auditors did identify one (1) sig-
 lowed up with management regarding the status of        nificant deficiency in internal controls over financial
 prior year findings and recommendations. Further,       reporting, and one (1) significant deficiency related
 LSC reviewed FEC’s compliance with applicable           to internal controls for the FEC’s agency-wide infor-
 laws and regulations and the existence and effec-       mation technology security program. The results
 tiveness of internal controls. During the audit, bi-    of the tests of compliance with certain provisions
 weekly status meetings were held with the auditors,     and laws and regulations disclosed no instance of
 OIG and FEC management to discuss audit issues          noncompliance that is required to be reported under
 and provide an update of the audit process.             Government Auditing Standards.



                                                                                                                5
                                                              Office of Inspector General Semiannual Report to Congress




Quality Assessment Review of the FEC Audit               consistently adhere to applicable auditing standards
Division                                                 and policies; audit conclusions are properly support-
                                                         ed with sufficient and competent evidence; supervi-
Assignment Number:	 OIG-12-01                            sory review of audits is timely throughout the con-
Status:	 In Progress                                     duct of audits; and other requirements that contribute
                                                         to quality audits. In addition, to ensure conformity
The quality control assessment audit of the FEC
                                                         with professional standards related to continuing
Audit Division commenced during this reporting
                                                         professional education (CPE), we performed testing
period. The FEC Audit Division (AD) is responsible
                                                         to determine if the audit staff regularly obtains ad-
for conducting audits of political committees, and
                                                         equate training to ensure audits are conducted in ac-
presidential campaigns and convention commit-
                                                         cordance with professional auditing standards (best
tees that accept public funds. In addition, the AD is
                                                         practices).
responsible for evaluating the Presidential primary
candidates’ applications for matching funds and de-      The OIG held a preliminary exit conference with the
termining the amount of contributions that may be        AD on March 28, 2012 to discuss potential audit is-
matched with federal funds.                              sues and audit testing was completed on March 30,
                                                         2012. The OIG is currently drafting the notice of find-
The primary objective of the audit is to ensure that     ings and recommendations (NFR) to be distributed
the FEC Audit Division’s quality control system is       to AD management for review and comment, which
suitably designed and consistently complied with to      will then be incorporated into the draft report.
the extent necessary to reasonably ensure compli-
ance with professional audit standards (best prac-       We anticipate issuing the final report during the next
tices) and policies. This audit is intended to model a   reporting period. The OIG is confident this audit will
peer review, a review commonly performed on both         prove to be valuable to the Commission as the OIG
federal and non-federal audit departments. When          determines whether the AD’s system of quality con-
assessing AD’s system of quality control, we con-        trol and audit processes are operating effectively.
sidered best practices based on applicable stan-
dards included in Generally Accepted Government
Auditing Standards (GAGAS) and/or Generally
Accepted Auditing Standards (GAAS) estab-
lished by the American Institute of Certified Public
Accountants.

During our audit, we interviewed AD personnel to
obtain an understanding of the nature of the AD
organization and the audit process used to con-
duct committee audits. Based on this initial assess-
ment, we selected a sample of audits completed
during the established audit period. The scope of
audits tested entailed an examination of the related
audit workpapers and reports to ensure auditors



6
October 1, 2011 - March 31, 2012




                                     OIG Audit Follow-up Activity



 2010 Follow-up Audit of Procurement and                 procurement policy) was finalized and approved by
 Contract Management                                     the Commission. When the OIG met with the CFO in
                                                         March 2012, it was determined that limited progress
 Assignment Numbers:	 OIG-10-02                          had been made and all twenty-nine (29) recommen-
 Status:	 On-Going, Continuous Monitoring                dations are still outstanding. The CFO continued
                                                         to report that progress on outstanding audit recom-
 In June 2011, the Office of Inspector General (OIG)     mendations had been delayed pending the ap-
 released the 2010 Follow-up Audit of Procurement        proval of the new procurement directive, as well as
 and Contract Management report. The purpose             a vacancy in the Procurement Director position and
 of the 2010 audit was to conduct a follow-up review     other staffing gaps.
 of the 2008 Audit of Procurement and Contract
 Management - OIG-08-02 to determine wheth-
 er management implemented the agreed actions            Audit Follow-up Review of the FEC’s Transit
 for each of the fifteen (15) recommendations and        Benefit Program
 whether each of the nine (9) audit findings con-
 tained in the 2008 audit report had been fully re-      Assignment Number:	 OIG-08-03
 solved. The 2010 follow-up audit was awarded to         Status:	 On-Going, Continuous Monitoring
 and conducted by the audit firm Cherry, Bekaert &
 Holland (CBH) LLP.                                      In July 2009, the OIG released the Audit Follow-
                                                         up Review of the FEC’s Employee Transit Benefit
 Based on the audit firms’ review, the auditors deter-   Program audit report. The purpose of the audit was
 mined that twelve (12) of the fifteen (15) previous     to verify whether management had adequately
 recommendations remained open, and the audi-            implemented the OIG’s recommendations includ-
 tors identified seventeen (17) new recommenda-          ed in the 2006 Audit of the FEC’s Employee Transit
 tions, for a total of twenty-nine (29) recommenda-      Benefit Program - OIG-06-01 audit report released
 tions. Management prepared a corrective action          February 2007. During the 2009 follow-up review,
 plan (CAP) to detail the plans to implement the         the OIG also assessed the adequacy of program
 audit recommendations. The OIG initiated during         policies and operating procedures, verified employ-
 this reporting period quarterly meetings with man-      ee compliance with program participation require-
 agement to discuss the status of outstanding audit      ments, and ensured that appropriate internal con-
 recommendations.                                        trols were in place.

 The OIG held quarterly meetings with the Chief          The 2009 audit follow-up determined that twenty-
 Financial Officer (CFO) on December 13, 2011            one (21) of the twenty-five (25) previous recommen-
 and March 28, 2012 to determine the status of           dations from the 2006 audit were still open and the
 the outstanding audit recommendations. During           OIG identified thirty (30) new recommendations that
 the December 2011 meeting, the CFO stated that          would help strengthen the FEC’s internal controls
 all recommendations were still open and would           over transit benefits, for a total of fifty-one (51) rec-
 not be completed until Directive 66 (planned            ommendations. Management provided a revised


                                                                                                                 7
                                                           Office of Inspector General Semiannual Report to Congress




corrective action plan (CAP) in September 2009 and     (12) of the twenty-five (25) open recommendations
has been required to provide semiannual status up-     which, once confirmed, should then be subsequent-
dates to the Commission on their progress in imple-    ly closed.
menting the outstanding audit recommendations. In
addition, the OIG has implemented quarterly meet-
ings with management to discuss the status of the      Audit of the Commission’s Property
outstanding audit recommendations.
                                                       Management Controls
The OIG met with the Transit Benefit program man-      Assignment Number:	 OIG-09-02
ager on December 7, 2011 to verify if management
                                                       Status:	 On-Going, Continuous Monitoring
had adequately implemented the recommendations.
The Transit Benefit program manager provided sup-
                                                       In March 2010, the OIG released the Audit of the
porting documentation and information to support
                                                       Commission’s Property Management Controls audit
their implementation for several of the audit recom-
                                                       report. During this audit, the OIG reviewed the use
mendations. The OIG reviewed and assessed the
                                                       of agency issued personal communications devices
information provided, followed up with additional
                                                       (PCDs) (Blackberry phones), government vehicles,
questions, and received additional information from
                                                       and agency charge cards. PCDs are managed by
the Transit Benefit program manager on tasks that
                                                       the FEC Office of Information Technology (OIT) and
had been completed since the December 2011
                                                       the government vehicles and charge cards are man-
meeting. The OIG held another quarterly meeting
                                                       aged by the FEC Administrative Services Division
with the Director of the Office of Human Resources
                                                       (ASD).
(OHR) on March 29, 2012 to provide an update to
management of the OIG’s follow-up review, obtain       The audit identified five (5) findings and the OIG
an official status of the outstanding recommen-        made thirty-six (36)1 audit recommendations that
dations, and identify additional supporting docu-      would help strengthen the FEC’s internal controls
mentation that could be used to verify if any of the   over property. Management provided their ini-
open audit recommendations have been properly          tial corrective action plan (CAP) in May 2010 and
implemented.                                           has been required to provide semiannual status
                                                       updates to the Commission on their progress in
Out of the fifty-one (51) audit recommendations
                                                       implementing the outstanding audit recommen-
included in the CAP, the OIG was able to close
                                                       dations. The OIG met with the ASD manager
twenty-six (26) based on a combination of system
                                                       and the Deputy Chief Information Officer (CIO) of
enhancements to the SmartBenefits program which
                                                       Operations December 13, 2011 to verify if man-
has further automated the transit benefits process,
                                                       agement had adequately implemented the recom-
as well as implementation of system controls and
                                                       mendations contained in the audit report. The ASD
monitoring controls implemented by the Transit
                                                       manager and the Deputy CIO of Operations pro-
Benefit program management team.
                                                       vided supporting documentation and information to
The OIG intends to obtain and review additional        1 Ten (10) audit recommendations relate to government
documentation from the OHR staff related to twelve     vehicles and charge cards; the remaining twenty-six (26)
                                                       recommendations are related to PCDs.



8
October 1, 2011 - March 31, 2012




 support their implementation for several of the audit   Information and the 2007 Performance Audit of
 recommendations.                                        Privacy and Data Protection. The objective of the
                                                         2010 follow-up audit was to assess the FEC privacy
 For the audit recommendations related to FEC’s          team’s implementation of the agreed upon audit rec-
 government vehicles and charge cards, the OIG           ommendations and determine whether each audit
 reviewed the information provided, followed up with     finding had been fully resolved from the two (2) prior
 additional questions, and received additional infor-    reports.
 mation from ASD on tasks that had been completed
 since the December meeting. The OIG scheduled           The 2010 audit follow-up identified thirteen (13) au-
 the next quarterly meeting with the ASD manager         dit findings and forty five (45) new and repeat audit
 on March 28, 2012 to provide an update to manage-       recommendations. The FEC’s privacy team provided
 ment of the OIG’s review and give an official status    their initial corrective action plan (CAP) in May 2011.
 of the outstanding recommendations. Out of the ten      The OIG met with the privacy team on December
 (10) audit recommendations that ASD is responsible      12, 2011 to discuss the outstanding audit recom-
 for implementing, the OIG was able to close four (4)    mendations. After the meeting, the privacy team
 based on adequate implementation. The status of         provided several emails and documents to support
 the remaining six (6) audit recommendations will be     the corrective actions that the privacy team had
 reviewed by the OIG during the next quarterly meet-     implemented to support closing the audit recom-
 ing in June 2012.                                       mendations. The OIG reviewed the information
                                                         and has scheduled a meeting in May 2012 with the
 For those audit recommendations related to agen-        FEC privacy team to discuss the outstanding audit
 cy issued PCD’s, the OIG is still working with the      recommendations.
 Deputy CIO of Operations and his staff to receive
 additional information and documentation to verify
 that audit recommendations have been properly
 implemented.



 2010 Follow-up Audit of Privacy and Data
 Protection
 Assignment Number:	 OIG-10-03
 Status:	 On-Going, Continuous Monitoring

 In March 2011, the OIG released the 2010 Follow-
 up Audit of Privacy and Data Protection audit re-
 port. The OIG contracted with Cherry Bekaert &
 Holland (CBH) to perform the follow-up audit on
 the findings and recommendations identified in the
 2006 Inspection Report on Personally Identifiable


                                                                                                              9
                                                            Office of Inspector General Semiannual Report to Congress




                                                                    OIG Inspections



Kastle Key Inspection                                   21, 2011 the OIG provided ASD with four (4) notice
                                                        of findings and recommendations (NFR) for their
Assignment Number:	 OIG – 11-02
                                                        review and response. Management provided their
Status: 	 Released December 2011                        response to the NFRs on December 7, 2011 and the
                                                        OIG incorporated management’s response in the
http://www.fec.gov/fecig/documents/                     draft inspection report and provided the complete
KastleKeyInspectionReport.pdf                           draft report to management for review and comment.
                                                        Management provided their comments to the draft
The OIG completed an inspection of the FEC’s            report and the final Kastle Key Inspection report was
Kastle Key system. Kastle is the building security      released December 29, 2011. The inspection re-
system that is utilized to control physical access to   sulted in four (4) findings and fifteen (15) recommen-
the FEC building during non-working hours. This in-     dations to improve the internal controls of the Kastle
spection was based upon the OIG’s annual work-          Key system.
plan and previous OIG audits and investigations that
identified weaknesses with the Kastle Key system.
The purpose of this inspection was to identify any      2011 Security Inspection
management processes or controls concerning the
FEC’s Kastle Key system that can be improved, and       Assignment Number:	 OIG – 11-03
provide management with recommendations to help         Status:	 In Progress
strengthen this function.
                                                        The inspection of the FEC’s Security Contract com-
                                                        menced during the last reporting period. Physical
The scope of the inspection included a review of the
                                                        security and access control for the FEC Building at
controls over the Kastle Key system and the overall
                                                        999 E Street, NW, Washington, DC is covered by a
process for managing Kastle keys. The inspection
                                                        contract (the “Contract”) with a contract guard com-
included a review of the adequacy of policies and
                                                        pany. The purpose of this inspection is two-fold.
procedures for managing access to the building with
                                                        The first purpose is to review the Contract, policies
the Kastle keys, and performing tests to determine if
                                                        and procedures, standing orders, and guard facili-
current management control activities are operating
                                                        ties to clarify responsibilities and authorities. This
effectively.
                                                        goal is informational and intended to provide FEC
                                                        management with information on the responsibilities
The OIG held an entrance conference to provide
                                                        and authorities of the parties to and beneficiaries of
management with an understanding of the pur-
                                                        the Contract. The second purpose is to determine
pose, scope, and inspection plan for the Kastle Key
                                                        compliance with selected Contract provisions, poli-
Inspection. The OIG reviewed applicable policies
                                                        cies and procedures.
and procedures and completed detailed testing to
assess the accuracy of the agency’s Kastle records      The inspection field work and document review was
and the effectiveness of their overall business pro-    completed during this reporting period, and encom-
cess. On October 13, 2011 the OIG held a status         passed a review of the Contract; relevant policies,
meeting with the Administrative Services Division       procedures, and standing orders concerning the
(ASD) to discuss potential issues. On November          Contract, types of routine and incident logs, forms



10
October 1, 2011 - March 31, 2012




 and reports kept or filed by the guards, training of the
 guards, duties, responsibilities and authority of the
 guards, including lines of authority and communica-
 tion, and the roles and responsibilities of FEC offices
 and personnel and non-FEC entities concerning the
 guards and Contract.

 The inspection did not entail a technical review to
 determine whether the Contract, policies and proce-
 dures are adequate, appropriate, and meet federal,
 legal and industry standards. Further, the inspection
 did not include a comprehensive review of the FEC
 building’s physical security, instead it was limited to
 those aspects of building security as they pertain to
 the goals and objectives of the inspection. Future in-
 spections may address these areas.

 The 2011 Security Inspection report is in the drafting
 stage and is expected to be issued during the next
 reporting period.




                                                            11
                                                                Office of Inspector General Semiannual Report to Congress




                                                OIG hotline Information



The OIG hotline exists to enable FEC employees,             The OIG frequently receives reports and allegations
FEC contractors, and the public to have direct and          which are misdirected complaints that should have
confidential contact with the OIG. All allegations or       been routed to the FEC Office of Complaints and
referrals of fraud, waste, abuse, mismanagement,            Legal Administration within the Office of General
and misconduct involving FEC employees, contrac-            Counsel (OGC), are outside the jurisdiction of the
tors, programs, operations, property, or funds re-          OIG or the FEC, or are facially unsubstantiated,
ceived through any means are termed “hotline com-           meritless or invalid. For example, Section 437g
plaints” per OIG policy. Once a hotline complaint           of the Federal Election Campaign Act of 1971, as
has been received, a preliminary inquiry is conduct-        amended (FECA), sets forth strict requirements
ed to determine whether the hotline complaint will          for reporting alleged violations of FECA, and FEC
be closed with no further action taken, referred to         regulations direct that such complaints be filed di-
management or another agency, or an investigation           rectly by the complainant and processed through
will be initiated.                                          OGC; still, the OIG regularly receives complaints
                                                            of alleged FECA violations, many of which are not
The OIG considers many factors when evaluating              statutorily compliant. In some cases, such as with
whether to open an investigation based on a hot-            complaints alleging FECA violations, a response
line complaint, and acknowledges that every hotline         is sent to the individual referring him or her to the
complaint received by the OIG cannot be investi-            proper office or other agency. In other cases, such
gated and in many cases do not merit investiga-             as questions concerning the FEC that do not pertain
tion. OIG policy requires that hotline complaints be        to the OIG, the inquiry may be redirected and sent
evaluated on certain criteria, including the merits of      to the appropriate office or agency directly from the
an allegation, the availability of evidence, and the        OIG. Reviewing and, where appropriate, responding
existing priorities, commitments, and resources of          to these reports and allegations when aggregated
the OIG. Under this policy, hotline complaints are          can entail a significant amount of staff time and ef-
classified as either high or low priority complaints.       fort, despite the fact that they are not valid hotline
High priority complaints are investigated and low           complaints.
priority complaints are either closed with no action
or referred to the appropriate official for possible fur-   In order to capture and document these hotline
ther review. Hotline evaluation decisions are made          contacts, the OIG created a category for “hotline
by the Chief Investigator, with concurrence from the        inquiries” that do not meet the criteria for hotline
Deputy IG.                                                  complaints. For this reporting period, the OIG re-
                                                            ceived one hundred and four (104) hotline inqui-
During this semiannual reporting period, two (2)            ries. Ninety-eight (98) of the hotline inquiries were
new hotline complaints were opened and one (1)              referred or redirected to other FEC offices, and two
hotline complaint was closed; one (1) hotline was           (2) were referred or redirected to another agency.
closed and merged into an investigative case. The           No further action was taken in four (4) of the hotline
OIG has three (3) open hotline complaints as of the         inquiries.
close of this reporting period, including one (1) that
was opened prior to the beginning of this reporting
period.



12
October 1, 2011 - March 31, 2012




                                      OIG investigations



                                   OIG investigations seek out facts related to alle-
                                   gations of wrongdoing. OIG investigations may
                                   address administrative, civil, and criminal viola-
                                   tions of laws and regulations. The subject of an
                                   OIG investigation can be any agency employee, an
                                   FEC contractor, consultant, or a person or entity
                                   involved in alleged wrongdoing affecting FEC pro-
                                   grams and operations.

                                   As discussed in OIG Hotline Information, all hotline
                                   complaints are evaluated to determine if they war-
                                   rant an investigation. If an investigation is opened,
                                   the hotline complaint is closed and merged into the
                                   investigative file. OIG investigations involve a de-
                                   tailed examination or inquiry into issues brought to
                                   our attention by various sources, and may include
                                   interviews of relevant witnesses and subjects,
                                   document reviews, and computer forensic exami-
                                   nations. At the conclusion of an OIG investigation,
                                   the OIG prepares a report that sets forth the al-
                                   legations and an objective description of the facts
                                   developed during the investigation.

                                   As of the end of the semiannual reporting period,
                                   one (1) investigation, opened during the prior re-
                                   porting period, was closed. The closed investiga-
                                   tion involved allegations that an employee violat-
                                   ed criminal ethics law and regulations governing
                                   standards of conduct for federal executive branch
                                   employees. The allegations were not substanti-
                                   ated, the Office of the United States Attorney for
                                   the District of Columbia declined prosecution,
                                   and a report of investigation was issued to the
                                   Commission.




                                                                                        13
                                                             Office of Inspector General Semiannual Report to Congress




                                                 Additional OIG Activity



Besides conducting audits, inspections, and investi-     OIG Employee Award
gations, the OIG performs, and is involved in an ar-
ray of additional projects and activities. As required   The Chief Investigator/Counsel to the IG (below)
by the Inspector General Act of 1978, as amend-          received an award from the Council of Counsels to
ed, all legislation compiled by the Commission’s         the Inspectors General (CCIG) for his Outstanding
Congressional Affairs office is reviewed by the          Contribution to the Inspector General Community.
Inspector General.

The Inspector General also reviews and provides
comments, when appropriate, on legislation provid-
ed by the Council of Inspectors General on Integrity
and Efficiency (CIGIE) Legislative Committee. In
addition, the Inspector General routinely reads all
Commission agenda items. Listed below are exam-
ples of the OIG’s additional activities:

  •	 The OIG completed the Improper Payments
     Elimination Recovery Act (IPERA) report
     which was submitted to the Commission and
     Congress. The IPERA will complement and
     help implement the Administration’s campaign
     against improper payments. Specifically, the
     bill will improve agency efforts to reduce and
     recover improper payments in several ways in-
     cluding: 1) identification and estimation of im-
     proper payments; 2) payment recapture audits;                         James Cameron Thurber,
     3) use of recovered improper payments; and 4)                    Chief Investigator/Counsel to the IG
     compliance and non-compliance requirements.

  •	 The OIG reviewed and provided FEC manage-
     ment with the annual Management Challenges
     for inclusion in the FEC’s 2011 Performance
     and Accountability Report.




14
October 1, 2011 - March 31, 2012




          Council of the Inspectors General on
        Integrity and Efficiency (cigie) Activity


 The Inspector General continues to be very involved      and Chair of CIGIE to discuss candidates for
 in CIGIE. She is a member of the Executive Council,      Presidentially appointed positions.
 which is composed of the Chair, Vice Chair, the past
 Vice Chair of the PCIE, all Committee Chairs, and
 one member appointed by the Chair. The Executive
 Council provides guidance on CIGIE initiated proj-
 ects, the operating plans for each fiscal year, and
 the general business of CIGIE. The Council meets
 monthly to discuss issues that will affect CIGIE.

 The Inspector General also chairs the Inspector
 General Candidate Recommendation Panel. This
 panel is charged with making recommendations of
 qualified candidates to the White House and heads
 of various federal agencies to be considered for va-
 cant Inspector General positions.

 The Inspector General is Vice Chair of the
 Professional Development Committee. This commit-
 tee is charged with ensuring there is strong, relevant
 training for the Inspector General community. Part of
 the charge of the committee, is to establish training
 academies for each of the professional designations
 in the IG community. This is an on-going project.

 During this semiannual reporting period, the IG re-
 sponded to a questionnaire from CIGIE Legislative
 Committee concerning whistleblower protection for
 contract employees; the IG also provided CIGIE
 with comments to the draft Progress Report to the
 President for FY 2011; provided comments to CIGIE
 for the annual business plan; and continues to re-
 ceive and forward applications for IG positions to re-
 maining members of the CIGIE panel.

 The IG participated in a conference call with the
 Chair and Vice Chair of CIGIE concerning a re-
 quest from an IG nominee; the IG also conducted
 a conference call with IGs at U.S. Postal Service
 and Commerce Department and met with a repre-
 sentative from the White House Office of Personnel



                                                                                                         15
                                                                Office of Inspector General Semiannual Report to Congress




                                                                              OIG Contacts



The table below indicates the total amount of contacts received by the Office of Inspector General for the past
six months – October 1, 2011 through March 31, 2012.

These contacts were made through various sources such as telephone calls, e-mails, faxes, U.S. mail, and per-
sonal visits to the OIG.


                             Total            OIG         No Action         Forwarded
                            Contacts         Action       Necessary         for Action

                             2,108              28          2,053                 27




16
October 1, 2011 - March 31, 2012




                                             List of Training, Meetings
                                                       and Conferences


The chart listed below depicts training, meetings, programs, seminars, and/or conferences attended by the
Inspector General and/or the OIG staff for the period October 1, 2011 – March 31, 2012:

MEETINGS:
                       Host / Sponsor                                      Topic / Subject
                                                             Monthly Meetings
                                                             Executive Council Meetings
                        Council of Inspectors General on     Professional Development Committee Meetings
                                  Integrity and Efficiency
                                                             Strategic Planning Session
                                                             Annual Awards Ceremony

            Council of Counsels to the Inspectors General    Monthly Meetings
                                                             CCIG 2011 Awards Ceremony

          Assistant Inspector General for Investigations     Quarterly Meetings

                       Financial Statement Audit Network     Monthly Meetings

                                                             Weekly Director’s Meetings
                                                             Finance Committee Meetings
                                                             Administrative Liaison Group Meetings
                             Federal Election Commission
                                                             Town Hall Meeting
                                                             Commission Hearing
                                                             Employee Recognition Awards Ceremony

                                                             Bi-weekly Staff Meetings
                                                             Annual Risk Assessment Meeting
                         FEC / Office of Inspector General   Financial Statement Audit:
                                                               Status Meeting
                                                               Exit Conference




                                                                                                            17
                                                              Office of Inspector General Semiannual Report to Congress




TRAINING/CONFERENCES:
                Host / Sponsor                                             Topic / Subject

           Association of Government Accountants Federal Financial Systems Summit Training


                                       CCH Group 2011 TeamMate Conference


                 Executive Women in Government 9th Annual Summit and Training Conference


                   Federal Audit Executive Council Improper Payments and Analysis of Recipient Information
                                                   and Reporting


                                                       Retirement Seminars (FERS & CSRS)
                      Federal Election Commission Advanced Excel Training
                                                       COTR Training

 Inspector General Criminal Investigator Academy Training Officers Seminar

                                                       Positioning your Audit Shop for Success
                      Institute of Internal Auditors
                                                       Auditing the Control Environment

                               American University New Leadership Development Program (2nd session)

                                                       OIG Suspension and Debarment Conference
     Council of Inspectors General on Integrity and Human Capital Framework Training
                                         Efficiency
                                                    Human Resources Evaluator Training
                                                       Audit Peer Review Training

                                                       Data Mining and Predictive Analytic Tools in Preventing/
                                                       Detecting Fraud Training
          Association of Certified Fraud Examiners
                                                       Social Media and Implications to the Fraud Community
                                                       Training

                                                    The Reid Technique of Interviewing and Interrogation
                          John E. Reid & Associates Training


                            Management Concepts Internal Controls: Meeting Federal Requirements for
                                                Accountability




18
October 1, 2011 - March 31, 2012




                     Host / Sponsor                                           Topic / Subject

                                                           Secrets of Successful Critical Thinking and Creative
                                                           Problem Solving
                                                           Creating a Professional Development Plan
                          SkillPath/Rockhurst University Developing your Emotional Intelligence
                                                           2012 Women’s Conference
                                                           The Extraordinary Assistant
                                                           Administrative Assistants Conference

                                                           Proofreading Training
                                   USDA Graduate School
                                                           Managing Multiple Priorities


                              U.S. Department of Justice Privacy Act and Freedom of Information Act Training




                                                                                                                  19
                                                               Office of Inspector General Semiannual Report to Congress




                                              Reporting Requirements




     Reporting requirements required by the Inspector General Act of 1978, as amended by the Inspector
     General Act Amendments of 1988 are listed below:

     IG ACT                DESCRIPTION                                                                       PAGE

     Section 4(a)(2)       Review of Legislation                                                                14

     Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                                      None

                           Recommendations with Respect to Significant Problems, Abuses,
     Section 5(a)(2)                                                                                           None
                           and Deficiencies
                           Recommendations Included in Previous Reports on Which Corrective
     Section 5(a)(3)                                                                                            23
                           Action Has Not Been Completed (Table III)
     Section 5(a)(4)       Matters Referred to Prosecuting Authorities                                         None

     Section 5(a)(5)       Summary of Instances Where Information was Refused                                  None

     Section 5(a)(7)       Summary of Significant Reports                                                        5

     Section 5(a)(8)       Questioned and Unsupported Costs (Table I)                                           21

     Section 5(a)(9)       Recommendations that Funds be put to Better Use (Table II)                           22

                           Summary of Audit Reports issued before the start of the Reporting Period
     Section 5(a)(10)                                                                                          N/A
                           for which no Management Decision has been made
     Section 5(a)(11)      Significant revised Management Decisions                                            N/A

                           Management Decisions with which the Inspector General is
     Section 5(a)(12)                                                                                          None
                           in Disagreement




20
October 1, 2011 - March 31, 2012




                                                                              TABLE I


 INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
 (DOLLAR VALUE IN THOUSANDS)



                                                       Number   Questioned   Unsupported
                                                                  Costs         Costs

  A. For which no management decision has been made      0          0             0
     by commencement of the reporting period


  B. Which were issued during the reporting period       0          0             0


      Sub-Totals (A&B)                                   0          0             0


  C. For which a management decision was made during     0          0             0
     the reporting period


      (i) Dollar value of disallowed costs               0          0             0


      (ii) Dollar value of costs not disallowed          0          0             0


  D. For which no management decision has been made      0          0             0
     by the end of the reporting period

  E. Reports for which no management decision was        0          0             0
     made within six months of issuance




                                                                                           21
                                                                Office of Inspector General Semiannual Report to Congress




                                                                                                 TABLE II


INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE


                                                                           Number                 Dollar Value
                                                                                                (In Thousands)
 A. For which no management decision has been made by the                       0                          0
    commencement of the reporting period

 B. Which were issued during the reporting period                               0                          0

 C. For which a management decision was made during the re-                     0                          0
    porting period
     (i) dollar value of recommendations were agreed to by                      0                          0
         management

        based on proposed management action                                     0                          0

        based on proposed legislative action                                    0                          0

     (ii) dollar value of recommendations that were not agreed to               0                          0
          by management
 D. For which no management decision has been made by the                       0                          0
    end of the reporting period
 E. Reports for which no management decision was made within                    0                          0
    six months of issuance




22
October 1, 2011 - March 31, 2012




                                                                                                           TABLE III


 SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS OUTSTANDING FOR
 MORE THAN SIX MONTHS
                                                                                       Recommendations
           Report Title                              Report                Issue Date       Number          Closed          Open
                                                     Number
    Audit Follow-up Review of the
    FEC’s Employee Transit Benefit                   OIG-08-03               07/09              51            26              25
    Program

    Audit of the Commission’s                        OIG-09-02               03/10             36              4              32
    Property Management Controls

    Federal Election2 Commission                     OIG-11-01               11/11             20              0              20
    2011 Financial Statement Audit
    2010 Follow-up Audit3 of
    Procurement and Contract                         OIG-10-02               06/11             29              0              29
    Management

    2010 Follow-up Audit4 of                         OIG-10-03               03/11             45              0              45
    Privacy and Data Protection




 2 Follow-up on the 20 open recommendations will be a part of the FEC’s 2012 Financial Statement Audit.
 3 The 29 open recommendations include 12 of the 15 recommendations from the 2008 Procurement and Contract Management
   Performance Audit, OIG-08-02. Three recommendations were closed from the 2008 audit.
 4 The 45 open recommendations include 16 of the 19 recommendations from the 2006 Inspection Report on Personally Identifiable
   Information, OIG-06-04, and 2007 Performance Audit of Privacy and Data Protection, OIG-07-02. In total, three recommendations were
   closed from the 2006 inspection and 2007 audit.



                                                                                                                                   23
                                                               Office of Inspector General Semiannual Report to Congress




                         APPENDIX A:
              INVESTIGATIVE PEER REVIEW RESULTS
In accordance with the Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010 (Section 989C
of P.L. 111-203), which amended Section 5 of the Inspector General Act of 1978, OIGs are required to include
in their semiannual reports (SAR) to Congress the results of peer reviews of their offices, as well as outstand-
ing and not fully implemented recommendations from peer reviews the OIG received from another OIG, and
outstanding and not fully implemented recommendations the OIG made in any peer review it performed for an-
other OIG.

The FEC OIG completed a voluntary investigative peer review of the Federal Trade Commission (FTC) OIG on
March 28, 2012. The review was conducted at the FTC headquarters office in Washington, DC, where we inter-
viewed OIG investigative personnel and reviewed FTC OIG investigative policies and procedures. Additionally,
we sampled four (4) case files for investigations closed during the previous 12-month period and reviewed the
case files for compliance with the quality standards for investigations.

We determined that the system of internal safeguards and management procedures for the investigative func-
tion of the FTC OIG in effect for the time period examined was in compliance with the quality standards estab-
lished by the CIGIE. These safeguards and procedures provide reasonable assurance of conforming to profes-
sional standards in the planning, execution and reporting of its investigations.




24
October 1, 2011 - March 31, 2012




                                     APPENDIX B:

                    Federal Election Commission
                        Office of Inspector General




                                   Fiscal Year 2012
                                      Work Plan




                                    Lynne A. McFarland
                                     Inspector General




                                                         25
                                                          Office of Inspector General Semiannual Report to Congress




                          TABLE OF CONTENTS

     A Message from the Inspector General-------------------------------------------- 1

     The Federal Election Commission--------------------------------------------------- 3

     Office of Inspector General------------------------------------------------------------ 3

     OIG Strategic Planning----------------------------------------------------------------- 4

     Annual Planning and Methodology Strategies---------------------------------- 5

     OIG 2012 Work Plan-------------------------------------------------------------------- 6

            Audits/Inspections/Reviews-------------------------------------------------- 6

            Investigative Program--------------------------------------------------------- 9

            Special Projects------------------------------------------------------------------ 10




26
October 1, 2011 - March 31, 2012




                              FEDERAL ELECTION COMMISSION
                              WASHINGTON, D.C. 20463
                              Office of Inspector General


                                         A Message from the Inspector General


                 I am pleased to present to the Commission the Office of Inspector General’s
          (OIG) fiscal year (FY) 2012 Annual Work Plan. This work plan includes a
          description of audit, inspections, investigative and special projects planned for the
          FY. This plan also sets forth the OIG’s formal strategy for identifying priority
          issues and managing its workload and resources for FY 2012. Successful execution
          of this plan will enable the OIG to provide the highest quality work products to our
          stakeholders and to assist the FEC in meeting its strategic mission, goals and
          objectives.

                 The OIG substantially completed the work planned for FY 2011 in the audit
          and investigative programs, as well as special projects, notwithstanding the
          resignation of the OIG’s Senior Auditor in March 2011. Among the audits
          completed in FY 2011 were the FY 2010 annual financial statement audit, and two
          follow-up audits of procurement and privacy practices. These three audits yielded a
          combined total of 85 audit recommendations to improve FEC programs and
          operations. An audit peer review of my office was also conducted in FY 2011 and
          resulted in a pass rating, and my office also conducted a peer review of another
          federal OIG. Lastly, the OIG finalized a new audit manual in FY 2011.

                 In addition to the accomplishments in the audit program, the investigative
          program accomplished all of the work planned for 2011, to include responding to
          hotline complaints, OIG briefings to all FEC staff and the implementation of a new
          hotline service, among other projects. In addition to the investigative program, the
          OIG staff was actively involved in several professional working groups during the
          FY, to include the Council of the Inspectors General on Integrity and Efficiency
          Professional Development Committee, the Inspector General (IG) Candidate
          Recommendations Panel Committee, the IG Council of Counsels, among others. At
          the start of FY 2012, the OIG is fully staffed with six professional staff members,
          and therefore I anticipate the OIG will successfully complete the FY 2012 work plan
          that follows.

                The U.S. Federal Election Commission’s (FEC) mission statement is “to
          prevent corruption in the Federal campaign process by administering, enforcing and
          formulating policy with respect to Federal campaign finance statutes.” 1 The OIG is
          committed to ensuring the integrity of FEC programs and operations. The
          development and continual updating of the OIG’s work plan is a critical aspect of
          accomplishing the OIG’s objectives to promote economy and efficiency in FEC


          1
           Federal Election Commission, Fiscal Year 2012 Congressional Budget Justification (Washington, DC, February
          14, 2011), 3.




                                                                                                                        27
                                                     Office of Inspector General Semiannual Report to Congress




     programs and to detect and prevent fraud, waste and abuse. Effective work
     planning ensures that audit and investigative resources are used effectively and
     efficiently. I look forward to a successful year of providing the highest quality of
     audit and investigative support and service to our stakeholders.




     Lynne A. McFarland
     Inspector General
     Federal Election Commission

     October 3, 2011




                                                                                                   2




28
October 1, 2011 - March 31, 2012




          The Federal Election Commission
                In 1975, Congress created the Federal Election Commission (FEC) to
          administer and enforce the Federal Election Campaign Act (FECA). The duties of
          the FEC, an independent regulatory agency, are to disclose campaign finance
          information; enforce the provisions of the law; and oversee the public funding of
          Presidential elections.

                The Commission is made up of six members, who are appointed by the
          President and confirmed by the Senate. Each member serves a six-year term, and
          two seats are subject to appointment every two years. By law, no more than three
          Commissioners can be members of the same political party, and at least four votes
          are required for any official Commission action. The Chairmanship of the
          Commission rotates among the members each year, with no member serving as
          Chairman more than once during his or her term. Currently the FEC has a full
          complement of Commissioners – Chair Cynthia L. Bauerly; Vice-Chair Caroline C.
          Hunter; Matthew S. Petersen; Ellen L. Weintraub; Steven T. Walther; and Donald
          F. McGahn, II.




          Office of Inspector General
                 The Inspector General Act of 1978 (P.L. 100-504), as amended, states that the
          Inspector General is responsible for: 1) conducting and supervising audits and
          investigations relating to the Federal Election Commission’s programs and
          operations; 2) detecting and preventing fraud, waste, and abuse of agency programs
          and operations while providing leadership and coordination; 3) recommending
          policies designed to promote economy, efficiency, and effectiveness of the
          establishment; and 4) keeping the Commission and Congress fully and currently
          informed about problems and deficiencies in FEC agency programs and operations,
          and the need for corrective action. The OIG budget request for FY 2012 was
          $ 1,062,237, an amount necessary to cover salaries and related expenses for six staff
          members, to include audit contracts and training. Exhibit 1 on the following page
          contains the OIG’s organizational chart.




                                                                                              3



                                                                                                  29
                                                                Office of Inspector General Semiannual Report to Congress




     Exhibit 1: FEC - OIG Organizational Chart

                                      Lynne A. McFarland

                                        Inspector General


                    Dorothy Maddox-Holland

                     Special Assistant to the
                       Inspector General



                                                Jon Hatfield

                                          Deputy Inspector
                                             General


       Shellie Purnell-Brown                     Mia Forgy                    J. Cameron Thurber

            Senior Auditor                      Staff Auditor               Counsel to the Inspector
                                                                           General/Chief Investigator




     OIG Strategic Planning
     Strategic Plan
            To enhance the effectiveness of the OIG and to ensure effective audit and
     investigative coverage of the Commission’s programs and operations, the OIG has a
     strategic plan that covers the period 2010 through 2015. Three major categories of
     OIG-wide goals and objectives are included in the strategic plan, which are as
     follows:

        •   OIG Products: To provide products and services that promote positive
            change in FEC policies, programs, and operations.

        •   OIG Processes: To develop and implement processes, policies, and
            procedures to ensure the most effective and appropriate use of OIG resources
            in support of our people and products.

        •   OIG Staff: To maintain a skilled and motivated work force in an
            environment that fosters accountability, communications, teamwork, and
            personal and professional growth.



                                                                                                              4



30
October 1, 2011 - March 31, 2012




                 In addition, strategies and performance measures for each objective are
          included in the strategic plan. For example, an OIG performance measure for
          audits includes using feedback from stakeholder surveys to continually improve the
          OIG’s audit process. At the conclusion of each audit/inspection/review, the OIG
          distributes a stakeholder survey to the program officials to solicit their feedback on
          the usefulness of the completed OIG assignment and their overall satisfaction with
          the process.

                 The OIG strategic plan will continue to evolve and will be reviewed and
          updated as necessary to ensure maximum effectiveness in meeting the changing
          needs of the FEC, consistent with the OIG’s statutory responsibilities. A detailed
          illustrative version of the OIG’s strategic plan can be found as an attachment of this
          Annual Work Plan.


          Annual Planning and Methodology Strategies

                 The planning methodology that we have adopted is built around the OIG staff
          brainstorming sessions held annually each summer, as well as soliciting and
          receiving feedback and ideas from stakeholders throughout the year. The annual
          work plans will, of course, require periodic updates to reflect changes, such as new
          priorities, as well as any changes in OIG resources. In the summer of 2011, the
          OIG conducted our fourth annual all-day brainstorming session. Similar to prior
          years, the ideas and suggestions generated from the 2011 brainstorming session
          were separated into categories to include audits, inspections, investigative program,
          and special projects, and then ranked (i.e., high, medium and low) according to
          priority.

                In anticipation of the OIG annual brainstorming sessions, the OIG sends an
          e-mail to all FEC staff seeking input in formulating the OIG’s work plans.
          Historically, the OIG receives useful audit suggestions from FEC staff which are
          then considered during the annual planning process.

                 The OIG planning process is designed to yield work assignments that will
          identify opportunities for economy, efficiency and effectiveness in FEC programs
          and operations; and detect and prevent fraud, waste, abuse and mismanagement.
          The priority for conducting work assignments is based on (1) mandatory legislative
          requirements; (2) emphasis by the President, Congress, and the Commission; (3) a
          program’s susceptibility to fraud, manipulation, or other irregularities; (4) dollar
          magnitude or resources involved in the proposed area; (5) management needs
          identified through consultation with primary organization heads; (6) newness,
          changed conditions, or sensitivity of an organization; (7) the extent of outstanding
          issues resulting from prior audit coverage or review by the OIG or other oversight
          body; and (8) the adequacy of internal control systems in place for the program or
          other factors.



                                                                                                 5




                                                                                                     31
                                                   Office of Inspector General Semiannual Report to Congress




            Based on the results of the OIG’s planning process, the OIG’s annual work
     plan is divided into three primary categories:

        (1) Audits/Inspections/Reviews;
        (2) Investigative Program; and
        (3) Special Projects.


     OIG 2012 Work Plan
     AUDITS/INSPECTIONS/REVIEWS

            The term “audit” is used to describe work performed by auditors in examining
     financial statements, as well as work performed in reviewing compliance with
     applicable laws and regulations, the economy and efficiency of operations, and the
     effectiveness in achieving program results. These audits are prepared in accordance
     with generally accepted government auditing standards and vary in scope and
     complexity. Inspections and reviews are conducted in accordance with quality
     standards issued by the federal Inspector General community.

     For fiscal year 2012, the following audit related assignments are planned:


        1. Audit of the Federal Election Commission’s 2011 and 2012 Financial
           Statements.

           In accordance with the Accountability of Tax Dollars Act of 2002, the FEC is
           required to prepare annual financial statements in accordance with Office of
           Management and Budget (OMB) Circular No. A-136, Financial Reporting
           Requirements. The Chief Financial Officers Act of 1990, as amended,
           requires the FEC Inspector General, or an independent external auditor
           selected by the IG, to audit the agency financial statements.

           We will oversee the audit conducted by the OIG’s independent public
           accounting firm Leon Snead & Company. The OIG is responsible for 1)
           reviewing the auditor’s approach and planning of the audit; 2) evaluating the
           qualifications and independence of the auditors; 3) monitoring the work of
           the auditors; 4) examining audit documents and reports to ensure compliance
           with government auditing standards, and OMB Bulletin No. 07-04, Audit
           Requirements for Federal Financial Statements, as revised; and 5) other
           procedures the OIG deems necessary to oversee the contract and audit.

           Planned period of audit: May 2011 – November 2011;
                                    May 2012 – November 2012.




                                                                                                 6




32
October 1, 2011 - March 31, 2012




              2. Quality Control Assessment of the FEC Audit Division.

                  The OIG will conduct a quality control assessment audit of the FEC Audit
                  Division. The primary objectives of the audit will be to ensure that the FEC
                  Audit Division’s quality control system is suitably designed and consistently
                  complied with to the extent necessary to reasonably ensure compliance with
                  audit standards and policies. For example, the audit will include a review of
                  the Audit Division’s audit workpapers and reports to ensure that auditors
                  consistently adhere to applicable auditing standards and policies; audit
                  conclusions are properly supported with sufficient and competent evidence;
                  auditors are properly trained; supervisory review of audits is timely
                  throughout the conduct of audits; and other requirements that contribute to
                  quality audits. Consistent with professional auditing standards and best
                  practices, external quality control assessments should be conducted on a
                  regular schedule, generally every three to five years, to ensure effective and
                  efficient audit practices and adherence to applicable audit standards by the
                  audit unit.

                  The FEC Audit Division is responsible for conducting audits of political
                  committees, and presidential campaigns and convention committees that
                  accept public funds. In addition, the Audit Division is responsible for
                  evaluating the Presidential primary candidates’ applications for matching
                  funds and determining the amount of contributions that may be matched
                  with federal funds.

                  Planned period of audit: November 2011 – February 2012.
              3. Audit of the Federal Election Commission’s Human Resources Office.

                  The OIG is planning to conduct a performance audit of the FEC’s Human
                  Resources (HR) Office during fiscal year (FY) 2012. The HR Office is a critical
                  component of the agency and is responsible for several important functions, to
                  include recruitment and retention of qualified staff; employee-employer
                  relations; administration of employee benefits; maintenance and processing of
                  personnel records; training; among other responsibilities. The Office of
                  Personnel Management (OPM) conducted a Human Capital Management
                  Evaluation of the FEC in 2009 and reported numerous weaknesses and
                  deficiencies. The purpose of the OIG’s audit will be to follow-up on the
                  weaknesses identified by OPM to ensure appropriate corrective action has been
                  taken by the FEC; and also focus on additional high-risk areas not covered by
                  the 2009 OPM evaluation.

                  Planned period of audit: March – June 2012.
              4. On-Going Audit Follow-up.




                                                                                                   7



                                                                                                       33
                                              Office of Inspector General Semiannual Report to Congress




       An important responsibility of the OIG is to follow-up on previously issued
       audit reports with outstanding audit recommendations. At the beginning of
       FY 2012, there were 130 outstanding audit recommendations representing
       four OIG audits. On-going audit follow-up during FY 2012 will consist of the
       following responsibilities: (1) review implemented audit recommendations to
       ensure the audit finding has been resolved; (2) review and comment on
       management’s corrective action plans that detail plans for resolving
       outstanding audit recommendations; and (3) conduct regular meetings
       throughout the FY with management to discuss progress to implement audit
       recommendations.

       Planned period of audit followup: On-going throughout FY 2012.

     5. Limited Scope Inspections.

       The OIG is planning to conduct four limited scope, or short-term, inspections
       of FEC programs during FY 2012. The goal of the short-term inspections will
       be to focus OIG resources on high-risk areas and provide rapid, up-to-date
       information to FEC management and the Commission on the efficiency and
       effectiveness of FEC programs. Two inspections started in FY 2011 on
       building security and internal controls over Kastle Keys will be completed in
       early FY 2012. In addition to these two inspections, an additional four
       inspections are planned for FY 2012.

       Planned period of inspections: FY 2012.

     6. Additional Work Assignments.

       Additional work assignments may be undertaken during FY 2012 based on
       available OIG resources, benefit to the agency, and other relevant factors.
       Priorities may be adjusted to reflect emerging issues during the FY.




                                                                                           8




34
October 1, 2011 - March 31, 2012




          INVESTIGATIVE PROGRAM

                 The OIG’s investigative program is intended to add value to the agency’s
          programs and operations by identifying and investigating allegations of fraud,
          waste, abuse and misconduct leading to criminal, civil, and administrative penalties
          and recoveries. Investigations typically originate as hotline complaints and may
          result in formal investigations if the OIG believes an investigation is warranted.
          The OIG’s investigative program also provides for initiatives designed to monitor
          specific high-risk areas within FEC programs and operations in order to proactively
          identify vulnerabilities in order to prevent fraud, waste and abuse.

          For fiscal year 2012, the following investigative assignments are planned:


              1. Manage Hotline Complaints and Investigation Caseload.

                  The OIG will respond to hotline complaints during the FY and report in a
                  timely manner to the appropriate officials on the resolution of hotline
                  complaints and investigations.

              2. Proactive Investigative Initiatives.

                  The OIG will initiate proactive reviews involving high-dollar and high-risk
                  programs and operations of the agency. In addition, the OIG has identified
                  several agency data systems, such as financial related systems, and is
                  pursuing direct read-access for OIG personnel as part of the OIG’s proactive
                  initiatives to prevent fraud, waste, abuse and misconduct.

              3. Investigative Peer Reviews.

                  The OIG will conduct an investigative peer review of another federal OIG in
                  FY 2012. The objective of the peer review is to determine whether internal
                  control systems are in place and operating effectively to provide reasonable
                  assurance that professional investigative standards are being followed.
                  Specifically, the FEC OIG peer review team will analyze existing policies and
                  procedures, conduct interviews with selected OIG management officials and
                  the investigative staff, and sample closed investigative files and other
                  administrative records, as warranted.

                  Planned period of peer review: January – March 2012.

                  In addition to a peer review of another OIG, the FEC OIG will participate in
                  the Council of Inspectors General on Integrity and Efficiency voluntary peer
                  review program for smaller OIGs, and the FEC OIG will be peer reviewed
                  during FY 2012.

                  Planned period of peer review: April – June 2012.
                                                                                                 9



                                                                                                     35
                                                    Office of Inspector General Semiannual Report to Congress




        4. Outreach.

           In FY 2011, the OIG conducted a series of OIG briefings with FEC division
           management and staff. The briefings were intended to educate FEC staff
           about the mission and authority of the OIG, and how to report fraud, waste,
           abuse or mismanagement to the OIG. In FY 2012, the OIG will continue our
           outreach program and conduct fraud briefings. The fraud briefings will
           provide information on the potential for fraud in FEC programs, such as
           travel, workers compensation, time and attendance, and government charge
           card activity. Discussion and education on fraud will help employees to
           identify and report suspected fraud and help reduce the number of fraud
           cases. The briefings will also discuss the OIG’s new hotline service launched
           in late fiscal year 2011.

           In addition, the OIG will continue the new employee orientation program to
           meet with all new employees to discuss the purpose and mission of the OIG.
           Lastly, the OIG will review and revise, as necessary, the OIG’s FECNet
           (intranet) site, public Web site, OIG brochure, fraud poster, and other
           outreach initiatives.


     SPECIAL PROJECTS
            In addition to the OIG’s audit and investigative responsibilities, the OIG will
     be responsible for numerous additional projects and activities during FY 2012. For
     example, as required by the Inspector General Act of 1978, as amended, all
     legislation compiled by the Commission’s Congressional Affairs Office is reviewed
     by the Inspector General. The Inspector General and staff also participate in
     several federal Inspectors General community working groups on topics related to
     law, audits, and investigations. All of these activities contribute to the success and
     mission of the OIG. Additional special projects will arise throughout the FY and the
     OIG will prioritize our workload to respond to the additional requirements.

     For fiscal year 2012, the following are examples of the special projects and activities
     planned by the OIG:


        1. Participate and Attend Professional Working Group and Other
           Meetings.

           The Inspector General or OIG staff will regularly attend the following
           Council of the Inspectors General on Integrity and Efficiency (CIGIE)
           professional working group meetings: CIGIE; Executive Council of CIGIE;
           CIGIE Professional Development Committee; IG Candidate
           Recommendations Panel Committee; IG Council of Counsels; Assistant
           Inspector General for Investigations; Federal Audit Executive Council; and
           Financial Statement Audit Network Group.

                                                                                                 10



36
October 1, 2011 - March 31, 2012




                  In addition to CIGIE professional working group meetings, the Inspector
                  General or staff will regularly attend FEC weekly senior level meetings, and
                  quarterly management and FEC town-hall meetings during the FY.

              2. Semiannual and Quarterly Reporting.

                  In accordance with the Inspector General Act of 1978, as amended, the OIG
                  will prepare and transmit to the Congress semiannual reports on the
                  activities of the OIG. Semiannual reports summarize OIG activities during
                  the immediately preceding six-month periods ending March 31st and
                  September 30th of each year. OIG semiannual reports are also provided to
                  the Commission. The OIG will also report on a quarterly basis to the
                  Commission on the activities of the office.

              3. Professional Development and Training.

                  The goal of the OIG’s training program is to provide cost effective training to
                  increase professional knowledge and proficiency, and ensure staff meet
                  continuing professional educational requirements. As a result, the OIG staff
                  will attend professional training and conferences during the fiscal year to
                  maintain and improve their knowledge, skills and abilities.




                                                                                               11



                                                                                                    37
                                                                                                Office of Inspector General Semiannual Report to Congress




                                                          FEC / OIG Strategic Plan - Fiscal Years 2010 - 2015
     OIG Products: To provide products                          OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
     and services that promote positive                         processes, policies, and procedures to ensure                    work force in an environment that fosters
     change in FEC policies, programs, and                      the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
     operations.                                                resources in support of our people and                           personal and professional growth.
                                                                products.

     Objective A: Deliver timely, high-quality                                                                                   Objective A: Attract and retain well-qualified,
     products and services that promote                                                                                          diverse and motivated employees.
     positive change.                                             Objective A: Maintain a dynamic strategic
                                                                  planning process.                                              Strategy:
                                                                                                                                 - develop and implement a comprehensive recruiting program
     Strategy:                                                                                                                   that attracts a broad population with the knowledge, skills,
     - establish common OIG standards for communicating           Strategy:
                                                                                                                                 abilities, and expertise necessary to make meaningful
     results;                                                     - periodically review and update the strategic plan to
                                                                                                                                 contributions to the OIG;
     - conduct quality assurance programs;                        address changing OIG and FEC priorities; and,
                                                                                                                                 - assess employee satisfaction and develop strategies to
     - solicit appropriate internal and external review and       - identify factors that influence organizational change
                                                                                                                                 address employee concerns;
     comment;                                                     and develop short and long term plans to address them.
                                                                                                                                 - identify reasons for staff departures and develop plans to
     - comply with applicable statutory guidelines and                                                                           foster greater staff retention; and,
     standards;                                                                                                                  - adhere to EEO principles and strive to maintain a diverse work
     - set realistic and appropriate milestones.                                                                                 force.

     Objective B: Address priority issues
     and concerns of the Commission,
                                                                  Objective B: Plan and conduct cost-
     Management, and Congress.
                                                                  effective work that address critical issues                    Objective B: Provide training and
     Strategy:     Perform work that supports;                    and results in positive change.                                developmental opportunities to employees.
     - Federal Election Commission and Congressional
     priorities;                                                  Strategy:                                                      Strategy:
     - Strategic Management Initiative efforts;                   - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
                                                                  activities;                                                    office needs as well;
     Focus OIG attention in the following areas of                - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
     emphasis:                                                    goals and priorities;                                          training are adhered to; and,
     - managing change;                                           - ensure that priorities of IG are effectively                 - maintain a reporting system to ensure that educational
     - resource allocation in relation to policy objectives;      communicated; and,                                             requirements are met.
     - delivery of client service;                                - identify specific targets for OIG review that are the most
     - causes of fraud and inefficiency; and,                     cost-effective
     - automation and communication.



                                                                  Objective C: Identify customer needs and
                                                                  provide products and services to meet
     Objective C: Follow-up and evaluate                          them.                                                          Objective C: Assess, recognize, and reward,
     results of OIG products and services to                                                                                     when possible, performance that contributes to
     assess their effectiveness in promoting                      Strategy:                                                      achieving the OIG mission.
     positive change.                                             - establish new customer feed back mechanisms;
                                                                  - consider and evaluate customers feedback when
                                                                                                                                 Strategy:
                                                                  planning and developing products and services;
     Strategy:                                                    - respond to Congressional inquires and request for
                                                                                                                                 - develop and articulate expectations for each employee's
     - Identify, as appropriate, lessons learned to improve                                                                      performance, including contributions in meeting the mission &
                                                                  briefing and testimony;
     timeliness and quality; and,                                                                                                goals of the OIG; and,
                                                                  - promote open exchange of ideas and information
     - conduct follow-up reviews to determine if intended                                                                        - ensure that rewards, when possible, are given in recognition of
                                                                  through outreach and through use of e-mail; and,
     results have been achieved.                                                                                                 exceptional employee performance.
                                                                  - receive, evaluate, and respond, as appropriate, to
                                                                  information received through the OIG hotline and other
                                                                  sources.


     Objective D: Satisfy customers,
     consistent with the independent nature                       Objective D: Implement efficient, effective,                   Objective D: Create and maintain a working
     of the OIG.                                                  and consistent resolution and follow-up                        environment that promotes teamwork and
                                                                  procedures.                                                    effective communication.
     Strategy:
     - establish professional communication and                   Strategy:                                                      Strategy:
     interaction with customers to promote the open               - ensure that IG follow-up procedures are followed and
                                                                                                                                 - ensure that communication between employees is open;
     exchange of ideas;                                           that management is aware of their role in the process;
                                                                                                                                 - provide employees with the tools and incentives they need to
     - incorporate customer feedback, as appropriate; and,        - establish common OIG standards for terminology, date
                                                                                                                                 adequately perform their duties.
     - be open to customer-generated solutions and                maintenance and communications.
     options.

                                                                  Objective E: Establish a positive and
                                                                  productive working environment.

                                                                  Strategy:
                                                                  - reengineer or streamline OIG procedures to achieve the
                                                                  most effective use of resources; and,
                                                                  - ensure that necessary technologies, evolving and
                                                                  otherwise, are made available to staff as needed.



     Performance Measures: Determine the
     timeliness and quality of products and                       Performance Measures: An annual audit                          Performance Measures: All employees meet
     services; their effectiveness in                             plan is issued; strategic plan is periodically                 the training requirements; all employees have
     promoting positive change; and, reach                        reviewed; and, necessary technology is                         performance standards; and all employees
     agreement with management on at least                        provided to staff to enable them to most                       meet the basic requirements for the position in
     90% of recommendations within six                            efficiently perform their duties.                              which they were hired to perform.
     months of the report issue date.                                                                                                                               12

                                                                                                                                                                 12
38
                         Federal Election Commission
                           Office of Inspector General




    Fraud Hotline
    202-694-1015




      or toll free at 1-800-424-9530 (press 0; then dial 1015)
      Fax us at 202-501-8134 or e-mail us at oig@fec.gov
      Visit or write to us at 999 E Street, N.W., Suite 940, Washington DC 20463




Individuals including FEC and FEC contractor employees are encouraged to alert the OIG to
fraud, waste, abuse, and mismanagement of agency programs and operations. Individuals
who contact the OIG can remain anonymous. However, persons who report allegations are encouraged
to provide their contact information in the event additional questions arise as the OIG evaluates the
allegations. Allegations with limited details or merit may be held in abeyance until further specific details
are reported or obtained. Pursuant to the Inspector General Act of 1978, as amended, the Inspector
General will not disclose the identity of an individual who provides information without the consent of that
individual, unless the Inspector General determines that such disclosure is unavoidable during the course
of an investigation. To learn more about the OIG, visit our Website at: http://www.fec.gov/fecig/fecig.shtml

                            Together we can make a difference.
